No.

tt

tbe imprente Court of the Cuiteb 6tattO
Lincoln Rymer, Petitioner
v.
UT at Martin, et al., Respondents

On Petition for Certiorari
to the
United States Court of Appeals for the Sixth Circuit

VERIFIED PETITION FOR
EXTRAORDINARY
WRIT OF CERTIORARI

Lincoln Rymer
154 Fowler Cemetery Lane
Hurricane Mills, TN 37078
931-296-3001

RECEIVED
JUL 1 8 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

QUESTIONS PRESENTED
Circuit Judge Andrew Kleinfeld considers it to be
capital punishment when teachers destroy students'
career prospects as punishment for the students'
exercise of free speech. Rymer's survival is threatened by his professors' retaliation for his speech.
Despite the Tennessee Court of Appeals and three
federal judges allowing claims in this case to proceed,
Judge Victoria Roberts sua sponte dismissed this
case, finding Docket Entry #1 frivolous. Judge Roberts spin-doctored the gravamen of this case and
passed over key facts and claims. For five months,
Judge Roberts defied an order of the Chief Judge of
the Sixth Circuit removing her from this case. Judge
Roberts exceeded her jurisdiction and disavowed Supreme Court precedent. On appeal, the Sixth Circuit
disavowed this Court's rulings on at least seven occasions, e.g., decisions never made by the District
Court cannot be affirmed. The Sixth Circuit uses
staff attorneys to dispose of pro se appeals and does
not allow pro se's to have oral arguments.
Judgments rendered without due process are
void. Does the conduct of the lower courts or the
inadequate appellate review warrant a GVR, with
instructions to consider in the first instance arguments pressed upon but passed over or otherwise
given short shrift?
Whether the circuits that consider state law to
not be dispositive in determining if an entity is an
arm of the state are correct?

Whether Hans v. Louisiana was abrogated by the
ratification of Article 2 of the ICCPR which
requires effective remedies for rights violations by
state officers?
If UT is an arm of the state, does 42 U.S.C.
§2000d-7 abrogate its immunity to claims
brought under 20 U.S.C. §1011a?

ii

PARTIES TO THE PROCEEDING
Petitioner is Lincoln Rymer (plaintiff/appellant).
Respondents are the following: Robert Lemaster,
Doug Sterrett, and the University of Tennessee
(defendants/appellees).

LIST OF ALL PROCEEDINGS IN OTHER COURTS
Rymer v. Oldham et al., Ch16-CV-41, Chancery Court for Robertson County Tenn.
Judgment entered June 29, 2016 (vacated).
Rymer v. TSAC (John Doe 3), No.17-941-IV,
Chancery Court for Davidson County Tenn.
Settlement reached, non-suited Sept. 5, 2018.
Rymer v. Lemaster, et al., No. 3:16-cv-2711,
U.S. District Court for the Middle District of
Tenn. Judgment entered May 21, 2018.
In Re Rymer, No.18-5650, U. S. Court of Appeals for the Sixth Circuit. Judgment
entered July 30, 2018.
Rymer v. Lemaster, et al., No.18-5655, U. S.
Court of Appeals for the Sixth Circuit. Judgment entered February 22, 2019.

iii

Table of Contents
QUESTIONS PRESENTED
PARTIES TO THE PROCEEDING

i
iii

LIST OF ALL PROCEEDINGS IN OTHER COURTS
iii
OPINIONS BELOW

2

JURISDICTION

3

CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES, AND REGULATIONS
3
STATEMENT

4

REASONS FOR GRANTING THE WRIT

12

I. Judge Victoria Roberts's misconduct and the
lack of adequate appellate review warrant vacature
with instructions upon remand to consider in the
first instance arguments pressed upon but passed
over or otherwise given short shrift
12
A.

The judgments are void

13

Judge Victoria Roberts presided over a
kangaroo court
13
The lower courts disregarded Supreme
Court precedent as well as their own.
15
The Sixth Circuit passed over
determinative sovereign immunity arguments
pressed upon it.
19
Void orders that are affirmed on appeal
are still void
20

iv

B.
Inadequate appellate review justifies a
GVR

20

The Epimenides Paradox proves no
Article III judge participated on Rymer's
appellate panel.

21

The use of a staff attorney deprived
Rymer of equal protection of the law.

22

Because of Judge Victoria Roberts's bias,
appellate review was an inadequate remedy
23
C.
Either the statutory or common law writ of
certiorari may be used to review the judgments
25
II. The circuits that consider state law to not be
dispositive in determining whether an entity is an
arm of the state are correct because it makes no
sense to allow sovereign immunity to give public
corporations an unfair advantage over private
enterprise.
27
Current arm-of-the-state tests in the Sixth
Circuit.
27
Seventh, Tenth, and Eleventh Circuit
holdings can unify sovereign immunity
jurisprudence in the realm of state and federal
public corporations.
30
III. Hans v. Louisiana should be overturned
given the ratification of the ICCPR which requires
effective remedies for rights violations by state
officers.
31

v

IV. 42 U.S.C. §2000d-7 abrogated Martin's
purported immunity to claims brought under
20 U.S.C. §1011a

36

The Cort factors support a private right of
action under 20 U.S.C. §1011a.
36
§1011a incorporates a prohibition of
discrimination thereby abrogating state
sovereign immunity through 42 U.S.C. §2000d-7
38
CONCLUSION

38

VERIFICATION

39

vi

Table of Authorities
Cases
Alden v. Me.,
527 U.S. 706 (1999)

34

In Re: Al-Nashiri,
791 F.3d 71 (D.C. Cir. 2015)
Berger v. United States,
255 U.S. 22 (1921)

2

1, 2, 23

Berndt v. Tennessee,
796 F.2d 879 (6th Cir. 1986)

17, 18

Betts v. Brady,
316 U.S. 455 (1942)

13

Boals v. Gray,
775 F.2d 686 (6th Cir. 1985)

14

In Re Chetwood,
165 U.S. 443 (1897)

25, 26

Cleveland Bd. of Educ. v. Loudermill,
470 U.S. 532 (1985)

4

Coll. Say. Bank v. Fla. Prepaid Postsecondary Educ.
Expense Bd.,
527 U.S. 666 (1999)
38
Cort v. Ash,
422 U.S. 66 (1975)

36, 37

Darrah v. City of Oak Park,
255 F.3d 301 (6th Cir. 2001)

vii

29

Dig. Equip. Corp. v. Desktop Direct,
511 U.S. 863 (1994)

22

Doe v. Cabrera,
134 F. Supp. 3d 439 (D.D.C. 2015)

22

Duke v. Grady Mun. Sch.,
127 F.3d 972 (10th Cir. 1997)

31

Edelman v. Jordan,
415 U.S. 651 (1974)

35

Erickson v. Pardus,
551 U.S. 89 (2007)

18

Exxon Shipping Co. v. Baker,
554 U.S. 471 (2008)

8

Fireman's Fund Ins. Co. v. Ry. Express Agency, Inc ,
253 F.2d 780 (6th Cir. 1958)
16
Foman v. Davis,
371 U.S. 178 (1962)

17

Fox v. Vice,
563 U.S. 826 (2011)

19

Garcia v. Sessions,
856 F.3d 27 (1st Cir. 2017)

33

Goddard v. Sevier County,
623 S.W.2d 917 (Tenn. 1981)

30

Gragg v. Ky. Cabinet for Workforce Dev.,
289 F.3d 958 (6th Cir. 2002)

28

Hall v. Med. Coll. of Ohio,
742 F.2d 299 (6th Cir. 1984)

27

viii

Hans v. Louisiana,
134 U.S. 1 (1890)

ii, 32, 34

Cannon v. Univ. of Chi.,
441 U.S. 677 (1979)

36, 37

Holt Civic Club v. Tuscaloosa,
439 U.S. 60 (1976)

18

Huckeby v. Spangler,
521 S.W.2d 568 (Tenn. 1975)

8

Interstate Comm. Corn. v. Chi., RI & Pac. Ry.,
218 U.S. 88 (1910)

1

Interstate Comm. Corn. v. Louisville & N. R. Co.,
227 U.S. 88 (1913)

15

J.S. Haren Co. v. Macon Water Auth.,
145 F. App'x 997 (6th Cir. 2005)

28

Kennedy v. Chadwell,
215 P.2d 548 (Okla. 1950)
Lane v. Pena,
518 U.S. 187 (1996)

20
38

Liljeberg v. Health Servs. Acquisition Corp.,
486 U.S. 847 (1988)

2

McClellan v. Carland,
217 U.S. 268 (1910)

26

Mich. Say. & Loan League v. Mun. Fin. Corn.,
79 N.W.2d 590 (Mich. 1956)

30

Miller-Davis Co. v. Ill. State Toll Highway Auth.,
567 F.2d 323 (7th Cir. 1977)
30
ix

Milliken v. Bradley,
433 U.S. 267 (1977)

17, 19

Noatak v. Hoffman,
872 F.2d 1384 (9th Cir. 1989)

32

PGA Tour, Inc. v. Martin,
532 U.S. 661 (2001)

32

Poindexter v. Greenhow,
114 U.S. 270 (1885)

32

Regents of the Univ. of Cal. v. Doe,
519 U.S. 425 (1997)

28

Roper v. Simmons,
543 U.S. 551 (2005)

32

Soni v. Bd. of Trs.,
513 F.2d 347 (6th Cir. 1975)

29

Sosa v. Alvarez-Machain,
542 U.S. 692 (2004)

32

Steel Co. v. Citizens for a Better Env't,
523 U.S. 83 (1998)

14, 18

Terrell v. Morris,
493 U.S. 1 (1989)

16

Thacker v. TVA,
587 U.S
(2019)

31

United States v. N.Y Tel. Co.,
434 U.S. 159 (1977)

26

Wellons v. Hall,
558 U.S. 220 (2010)

12

x

Woolsey v. Hunt,
932 F.2d 555 (6th Cir. 1991)

29

Versiglio v. Bd. of Dental Exam'rs,
651 F.3d 1272 (11th Cir. 2011)

31

Vibe Micro, Inc. v. Shabanets,
878 F.3d 1291 (11th Cir. 2018)

17

Will v. United States,
389 U.S. 90 (1967)

15

Williams v. North Carolina,
317 U.S. 287 (1942)

13

Wisconsin v. Constantineau,
400 U.S. 433 (1971)

14

Constitutions
Tenn. Const. art. II, § 31

3, 30

U.S. Const. amend. I

3, 34

U.S. Const. amend. X

3, 35

U.S. Const. amend. XI

3, 28, 29, 34, 35, 38

U.S. Const. amend. XIV

3, 13, 14, 21-23, 37, 38

Statutes
20 U.S.C. § 1011a

ii, 3, 18, 36-38

20 U.S.C. § 1091

5

28 U.S.C. § 46

20, 22

28 U.S.C. § 453

20, 22, 23

28 U.S.C. § 1254

3

28 U.S.C. § 1331

4

xi

28 U.S.C. § 1651

3, 26

28 U.S.C. § 1746

41

42 U.S.C. § 1983

3, 17, 18

42 U.S.C. § 1985

3, 17, 18

42 U.S.C. § 2000d-7

ii, 3, 36, 38

Tenn. Code Ann. § 49-6-3005
Tenn. Code Ann. § 9-1-103

5
30

Rules
Fed. R. Civ. P. 12

2, 14, 18

Fed. R. Civ. P. 54

18

Fed. R. Civ. P. 59

2, 17, 18

Sup. Ct. R. 10

25

Secondary Authorities
Cooper & Berman, Passive Virtues and Casual Vices
in the Federal Courts of Appeals,
66 Brook. L. Rev. 685 (2001)
19
Ernest H. Schopler, Annotation: What Issues Will The
Supreme Court Consider, Though Not, or Not
Properly, Raised by the Parties,
42 L. Ed. 2d 946
21
Gilman, Calling the United States' Bluff,
95 Geo. L.J. 591 (2007)

35

Hon. Gilbert S. Merritt, Judges on Judging: The Decision Making Process in Federal Courts of Appeals,
51 Ohio St. L.J. 1397 (1990)
11, 24

xii

Hon. Harry T. Edwards, The Growing Disjunction
Between Legal Education and The Legal Profession,
91 Mich. L. Rev. 34 (1992)
6
Hon. John M. Rogers, "I Vote This Way Because I'm
Wrong":• The Supreme Court Justice as Epimenides,
21
79 Ky. L.J. 439 (1991)
Hon. Stephen G. Breyer, Response of Justice Stephen
G. Breyer,
64 N.Y.U. Ann. Surv. Am. L. 33 (2008)
6

Treatises
Boskey, 1A West's Federal Forms

3
13, 25

Moore's Federal Practice
Shapiro et al., Supreme Court Practice (10th)
Wright & Miller,
Federal Practice and Procedure

15

12, 19, 25, 32

in the gpttpreme Court of the Cuiteb i§tattg
Lincoln Rymer, Petitioner
v.
UT at Martin, et al., Respondents
On Petition for Certiorari to the
United States Court of Appeals for the Sixth Circuit
VERIFIED PETITION FOR EXTRAORDINARY
WRIT OF CERTIORARI
This Court has said that a ruling arrives at
the appellate court "fortified by presumptions" "of
truth due to the judgments of a tribunal appointed
by law and informed by experience." Interstate
Comm. Com. v. Chi., RI & Pac. Ry., 218 U.S. 88,110
(1910); Berger v. United States, 255 U.S. 22, 36
(1921). When those judgments are the product of
bias, "[t]he remedy by appeal is inadequate," Justice
McKenna noted in his opinion in Berger. "It comes after the trial, and, if prejudice exist, it has worked its
evil and a judgment of it in a reviewing tribunal is
precarious." Ibid.
Once Judge Victoria Roberts borked Rymer,
this case was dead on arrival at the court of appeals.
Resuscitation was made impossible by the Sixth Circuit's reliance upon a staff attorney to give the panel
a unilateral perspective and a recommended disposition, defeating the purpose of having panels comprising of three judges. Unless, this Court intervenes,
the staff attorney and Judge Victoria Roberts will
have sealed Rymer's fate and written his epitaph.
1

"With actual bias, ordinary appellate
review is insufficient because it is too
difficult to detect all of the ways that
bias can influence a proceeding. [...]
("[I]f prejudice exist[ed], it has worked
its evil and a judgment of it in a reviewing tribunal is precarious. It goes there
fortified by presumptions, and nothing
can be more elusive of estimate or decision than a disposition of a mind in
which there is a personal ingredient."
(quoting Berger v. United States, 255
U.S. 22, 36 (1921)). With apparent bias,
ordinary appellate review fails to
restore "public confidence in the integrity of the judicial process." Liljeberg v.
Health Servs. Acquisition Corp., 486
U.S. 847, 860 (1988)."/n Re: Al-Nashiri,
791 F.3d 71 (D.C. Cir. 2015)
OPINIONS BELOW
Judge Victoria Roberts dismissed the case under Fed. R. Civ. P. 12(b)(1) and 12(b)(6). (App.,1d11d). The district court denied a motion to set aside
the judgment under Fed. R. Civ. P. 59(e) and 60 and
denied leave to amend the complaint. (App., 1i-6i). A
petition for a writ of mandamus seeking vacature of
the judgments was denied. (App.,lj-2j). The district
court orders were affirmed. (App.,lk-12k). All decisions are unpublished.

2

JURISDICTION
The jurisdiction of this Court is invoked under
28 U.S.C. §1254(1). In the alternative', jurisdiction
of this Court is invoked under 28 U.S.C. §1651. The
judgment of the court of appeals was entered on January 14, 2019. The petition for panel rehearing and
en bans rehearing was denied on February 22, 2019.
A combined petition for certiorari and mandamus
was received by the Clerk of this Court on May 23,
2019. Pursuant to Sup. Ct. R. 14.5, the Clerk
extended the filing deadline of this certiorari petition
to July 22, 2019.
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES, AND REGULATIONS
The constitutional provisions, treaties, and
statutes involved in this case are as follows:
U.S. Const. amend. I
U.S. Const. amend. X
U.S. Const. amend. XI
U.S. Const. amend. XIV
Tenn. Const. art. II, § 31 (App.,1m)
International Covenant on Civil and Political
Rights (ICCPR), Article 2 (App.,1n-4n)
28 U.S.C. § 453
20 U.S.C. § 1011a (App.,lo-3o)
42 U.S.C. § 1983
42 U.S.C. § 1985(3)
42 U.S.C. § 2000d-7 (App., 1p)

1 A petition seeking both statutory and common law writs of
certiorari may be combined into one document. See Boskey, lA
West's Federal Forms, §296 p387 n.6.

3

STATEMENT
The jurisdiction of the district court was invoked
under 28 U.S.C. §§1331 and 1343.
In 2017, Circuit Judge Kethledge authored a book
that describes same general phenomenon Rymer
experienced at UT Martin's school of engineering:
"The leader who defies convention must
bear the disapproval of establishment
types, who will try to coerce him morally,
and failing that might box his ears. The
leader who defies bureaucracy is usually in
for harder treatment, as its machinery,
given the chance, will run over him with
the indifference of a tank."
Hon. Raymond Kethledge, Lead Yourself
First (2017)
Circuit Judge Posner has written about the dean
of the Harvard Law School attempting to derail
his early career.2 Circuit Judge Kleinfeld considers such conduct to be capital punishment.3 This
case challenges the capital punishment imposed

2 Hon. Richard A. Posner, Reforming the Federal Judiciary,142
(2017)
3 Hon. Andrew J. Kleinfeld, Politicization: From the Law
Schools to the Courts, The Long Term View, Spring 1995;see
also Cleveland Bd. of Educ. u. Loudermill, 470 U.S. 532, 543
(1985)(in which the Court "recognized the severity of depriving
a person of the means of livelihood"). "We live in a society where
if you don't have a job, you are left to die." Rep. Alexandria
Ocasio-Cortez

4

upon Rymer for speaking about the disjunction
between academia and the needs of corporate
America.?
3. The Tennessee Court of Appeals4 and three federal judges allowed Rymer's case to proceed.
This case on appeal is about a 16-year-old child
who, without a high school diploma or a GED,
was illegally5 admitted to an unaccredited engineering school staffed by bureaucrats, many of
whom were laid-off Cold War engineers. Rymer
was one of the school's first students. The formerly named School of Engineering was within
UT Martin, which was placed on accreditation
probation in December 2015 by the Southern Association of Colleges and Schools (SACS), one of
six regional accreditation organizations recognized by the United States Department of Education.6
Much like Justice Sotomayor had done as a student at Princeton, Rymer sought an addition to
the curriculum. Unlike Justice Sotomayor,

4 A suit for discovery was commenced in Chancery court against
a party considered to be in privity with the Martin respondents.
The pure bill of discovery alleged substantially the same set of
facts as this case. The Middle Division of the Tennessee Court
of Appeals vacated the trial judge's order, eliminating potentially thorny res judicata issues in federal court.
5 Rymer was admitted to college as an underage minor in violation of T.C.A. §49-6-3005 and was loaned money in violation of
20 U.S.C. §1091, 34 C.F.R. 668.32, and 34 C.F.R. § 600.4(a)(2)
6 www.jacksonsun.com/story/news/education/2016/04/22/utm-repeatedlyfailed-fix-issues-led-probation/83399600/

5

Rymer attended a school that believes it is entitled to sovereign immunity and is above the law.
Rymer criticized the disjunction between
academia and the needs of industry.?
Rymer expressed views now endorsed by
corporate America.8
At the time of Rymer's statements, the engineering school was seeking ABET accreditation. The
naïve kid had no concept of bureaucracies or the
grave danger he was in by voicing his opinions.
Upon hearing Rymer's complaints, Profs. Lemaster and Sterrett demanded Rymer to design and
manufacture a miniature high-speed CNC Milling
Machine with an automatic toolchanger. At the
time, no comparable machine on the market existed. Rymer submitted an initial design and Lemaster burst into an expletive-laced fit of rage.
Lemaster raised the goalpost five times making
the project harder and harder. Lemaster justified
the goalpost changes as being necessary "iterations." During the second semester of the project,
Rymer suffered an aneurystic injury and dropped
out for nearly two years.

7 Cf. Hon. Harry T. Edwards, The Growing Disjunction Between
Legal Education and The Legal Profession, 91 Mich. L. Rev. 34
(1992); Hon. John G. Roberts, 2011 Judicial Conference of the
Fourth Circuit; Hon. Stephen G. Breyer, Response of Justice
Stephen G. Breyer, 64 N.Y.U. Ann. Surv. Am. L. 33 (2008).
8 Condoleezza Rice et al., U.S. Education Reform and National
Security, Council on Foreign Relations, Independent Task Force
Report No. 68 (2012); Engler et al., The Work Ahead, Machines,
Skills, and U.S. Leadership in the Twenty-First Century, Independent Task Force Report No. 76 (2018)

6

In 2015, Rymer found an advertisement by Haas,
a billion-dollar corporation, offering the world's
first machine of the type that he was assigned to
build. The listed MSRP of the Haas machine is
$80,000. At that point, Rymer knew he had been
setup for academic failure. The wild-goose chase
assignments caused a year's worth of bad grades
and delayed his graduation by which time the
economy had tanked, preventing him from obtaining gainful employment.
In October 2017, Judge number eight (8), Judge
Victoria A. Roberts, found Docket Entry #1 to be
frivolous and sua sponte dismissed the case. In
doing so, she omitted from her ruling all of the
preceding facts stated in ¶3, supra.
On April 12, 2019, while researching other cases
in Nashville presided over by Judge Victoria Roberts, by serendipity Rymer discovered, Judge Roberts had failed to timely relinquish this case in
violation of the express command of the Chief
Judge of the Sixth Circuit Court of Appeals.
(App., le). Judge Roberts unlawfully continued to
preside over this case five (5) months past her
term expiration. (App., 1f).
Judge Roberts had relinquished all of the other
cases still pending before her at the time of the
expiration of her term in Nashville. (App.,1g-lh).
Five months past the expiration of her term,
Judge Victoria Roberts relinquished the case to a
newly-commissioned Judge William Campbell.
Eleven days later, Judge Campbell issued a
7

ruling in this case that cited a specific sentence
from footnote five of Exxon9 that no judge in the
Middle District of Tennessee has cited before or
since, but is frequently cited in Judge Victoria
Roberts's home district.
Regretfully, Petitioner's complaint compared his
mistreatment by Martin to the lynchings of African Americans in the Old South.
In briefing an issue, Petitioner cited a 1975 Tennessee Supreme Court decision'° in which the
Justices had referred to an African American by
an n-word. The Justices also remarked upon the
man's death as though he were just a piece of livestock. Shortly after that filing, this case was
reassigned to Judge Victoria Roberts in Detroit.
A few weeks prior, Judge Roberts had quoted
from Judge Pamela Ann Rymer's controversial
landmark ruling in Cato v. United States, which
is hostile to Judge Roberts's life mission. Petitioner's complaint named Judge Rymer as a family member.
Rymer has extrajudicial evidence to support a
finding that Judge Roberts was unfairly biased.
That evidence, for the public welfare, should be
introduced in camera.
11.In addition to ignoring the case against Doug
Sterrett and Lemaster, Judge Roberts ignored
Rymer's argument invoking the discovery rule by
arguing that the statute of limitations did not

9

Exxon Shipping Co. v. Baker, 554 U.S. 471, 485 n. 5 (2008)
Huckeby v. Spangler, 521 S.W.2d 568, 573 (Tenn. 1975)

10

8

begin to run until Rymer discovered the $80,000
Haas machine.
On appeal, Rymer briefed it thusly:
"Engineering school is supposed to be hard.
But when is it too hard? When is it intentionally made too hard?...Before my 2015 discovery of... the Haas OM-2A, not even Sherlock
Holmes could have discovered that I had
been set up for failure. [Martin's] defense was
wholly frivolous because they expected me to
have knowledge of future technology which
did not exist in the year 2000...I am not Nostradamus, a soothsayer with a crystal ball."
The lower courts did not consider that argument.
Instead, Judge Roberts sua sponte raised an argument no party had briefed. Judge Roberts found
that because Rymer had been a Christian and
had suffered PTSD following his collegiate ordeal
he was mentally incompetent for most of the 21st
century. Rymer challenged that in the lower
courts, to no avail. Despite Rymer's arguments
that the collateral consequences of the ruling
jeopardize his fundamental rights, the Sixth Circuit found the issue moot.
12.Rymer has had only one employer in the past ten
years. He worked as a low wage manual laborer,
working in a place his employer called "death
row." While juggling his job and the appeal of
Judge Roberts's hatchet job, Rymer lost his job.
Rymer has since been unable to obtain employment at any skill level.
9

13. The Sixth Circuit has a staff attorney program to
dispose of pro se appeals, such as Rymer's.11 Circuit Judges Gil Merritt and Alex Kozinski have
described the staff attorney programs:
"[S]taff attorneys...process...the cases...
and prepare a proposed disposition
...[J]udges don't see the briefs in advance
and... generally rely on the staff attorney's
...description of the case in deciding
whether to sign on to the proposed disposition. After you decide a few dozen such
cases on a screening calendar, your eyes
glaze over, your mind wanders, and the
urge to say OK to whatever is put in front
of you becomes almost irresistible."
Hon. Alex Kozinski, The Appearance of
Propriety, Legal Affairs (Jan I Feb 2005 issue).
"If case loads and time pressures on appellate judges should continue to increase, we
should probably expect consequences such
as a tendency towards deference to the interests of established authority and a tendency towards giving the cases of individuals, particularly those of ordinary citizens
and the poor, less attention. Less experienced lawyers, underpaid lawyers or the
absence of any lawyers at all characterize

11 Federal Judicial Center, Deciding Cases Without Argument:
An Examination of Four Courts of Appeals, 93 (1987)

10

the cases in which this effect most often
occurs. Delegation of decision-making authority to others, the elimination of oral
argument and reasoned decisions, quick
decisions based upon defenses which avoid
the merits, and decisions which rely on
discretion rather than specific legal principles may be some of the effects of a judicial
process driven by haste.
...Mlle judicial process will turn
from reflection to ritual, from deliberation
to delegation if case loads continue to increase...[C]onsistent deference to authority
by the courts undermines the very notion
of the rule of law.
Hon. Gilbert S. Merritt, Judges on Judging:
The Decision Making Process in Federal
Courts of Appeals, 51 Ohio St. L.J. 1397
(1990).
14. Rymer requested an evidentiary hearing and oral
arguments on several occasions, to no avail. The
Sixth Circuit does not allow pro se's to have oral
argument.12

12 "[T]he court does not hear argument in pro se cases" Federal
Judicial Center, Deciding Cases Without Argument: An Examination of Four Courts of Appeals, 103 (1987)

11
•

REASONS FOR GRANTING THE WRIT
Where there is a serious question about the fairness of judicial proceedings, this Court has remanded
for reconsideration. 16B Wright and Miller, Federal
Practice and Procedure (3d), §4004.5 at 128 (citing
Wellons v. Hall, 558 U.S. 220 (2010) (a GVR remanding with instructions to order discovery and an evidentiary hearing which had been wrongly withheld).
The lower courts' conduct in this case poses a serious question about the fairness of the judicial proceedings. Thus, at minimum, a GVR is appropriate.
However, plenary consideration is justified given the
important questions presented pertaining to the
sovereign immunity of commercial enterprises.
I.

Judge Victoria Roberts's misconduct and the lack
of adequate appellate review warrant vacature
with instructions upon remand to consider in the
first instance arguments pressed upon but passed
over or otherwise given short shrift.
The lower court rulings should be vacated
because the lower courts conducted sham proceedings. While this Court may not have previously considered the question of whether a void judgment is
transmuted to a valid judgment when affirmed, numerous state supreme courts have held they are not.

12

A. The judgments are void.
1. Judge Victoria Roberts presided over a
kangaroo court.
The lower courts threw procedural due process
and the doctrine of stare decisis out the window. The
lower courts put an inaccurate spin on the facts and
wrongfully portrayed Rymer and his case in a false
light.
Rulings rendered in sham judicial proceedings
are void. Betts v. Brady, 316 U.S. 455, 464 (1942)
("trial was a mere sham and pretense, offensive to
the concept of due process.");see also Williams v.
North Carolina, 317 U.S. 287, 306 (1942)(Judgments
are valid "only where such judgments meet the tests
of justice and fair dealing that are embodied in the
historic phrase, "due process of law'"');1B Moore's
Federal Practice P 0.406(2), p. 905; 7 id. at P
60.25(2), p. 309-11.("[A] judgment, whether in a civil
or criminal case, reached without due process of law
is without jurisdiction and void, and attackable collaterally").
Judge Roberts defied an order of the Chief
Judge removing her from this case. (App., le). Five
months past the expiration of her term in Nashville,
the case was reassigned to Judge Campbell. (App.,
10. Eleven days later a ruling was entered that cited
a specific sentence from footnote five of Exxon13
never cited before or since in the Middle District of
Tennessee but very frequently cited in Judge Roberts's home district in Michigan. Why did Judge
13

See footnote 9, supra

13

Roberts defy Chief Judge Cole's order? Who actually
wrote the order denying the post-judgment motions?
Judge Roberts "conceal[ed] the role of personal
preferences in [her] decisions by stating the facts selectively, so that the outcome seems to follow from
them inevitably." Hon. Richard A. Posner, How
Judges Think, 144 (Harv. Press 2008). By her
hatchet job and comparison of Rymer to the delusional people in the inapposite cases she cited, Judge
Roberts "distort[ed] the case in point beyond all
recognition, so as to slip its whole force [a]nd...include[d] the unvarnished citation of a few alleged authorities which have little or nothing to do with the
proposition for which they are cited." Karl Llewellyn,
The Common Law Tradition: Deciding Appeals, 133
(1960).
Judge Roberts exceeded" her jurisdiction by
reaching the statute of limitations issue after dismissing under Rule 12(b)(1) and deprived Rymer of
due process by improperlym sua sponte declaring him
incompetent without an evidentiary hearing or
impaneling a jury.16
The facts found do not pertain to the case on
appeal. The irrelevant, distracting, and bogus

Steel Co. v. Citizens for a Better Env't, 523 U.S. 83, 94 (1998)
Boals v. Gray, 775 F.2d 686,691 (6th Cir. 1985)(sua sponte
consideration of unraised arguments is improper, absent injustice or public policy)
16 Wisconsin v. Constantineau, 400 U.S. 433, 437 (1971) ("Where
a person's good name, reputation, honor, or integrity is at
stake...notice and opportunity to be heard are essential.")

14

15

14

findings that Christians'7, persons in love18, and persons suffering from PTSD are mentally incompetent
do not, as a matter of law, support the orders made.
Therefore, the orders are void. Interstate Commerce
Commerce v. Louisville & N. R. Co., 227 U.S. 88, 9192 (1913)(collecting cases)(order is void "if the facts
found do not, as a matter of law, support the order
made").
Justice Alito has said, "A judge can't have any
agenda, a judge can't have any preferred outcome in
any particular case... [t]he judge's only obligation-and
it's a solemn obligation-is to the rule of law."19 Judge
Victoria Roberts did not abide by that principle in
this case.
2. The lower courts disregarded Supreme Court
precedent as well as their own.
The holdings of this Court are not mere precatory
meanderings to be adhered to or not as the lower
courts so choose. This Court takes action when a
lower court disregards the law. Shapiro, Supreme
Court Practice, 10th Ed. (2013) at 669 (citing Will v.
United States, 389 U.S. 90, 100 n.10 (1967) (granting
mandamus for a district judge's disregard of the
Rules of Civil Procedure)). Likewise, certiorari
App. 3d
18 Though wholly irrelevant to the case on appeal, "love" is the
unspecified form of "insanity" sua sponte referenced by the
Sixth Circuit in spinning their rehash of claims that were never
ever briefed in the lower courts. See Appx. C.
19 Hon. Samuel Alito, Confirmation Hearing on the Nomination
of Samuel A. Alito, Jr. to be an Associate Justice of the Supreme
Court of the United States, Serial No. J-109-56, p56
17

15

should be granted where, as here, the lower courts
have persistently disregarded this Court's hallowed
precedents.
Terrell v. Morris, 493 U.S. 1 at 3 (1989)
The Sixth Circuit repeated its mistake in Terrell
v. Morris by affirming a decision that the District
Court never made. Terrell forbids that practice. The
District Court never decided that the professors have
qualified immunity, but the Sixth Circuit decided
that it is within the scope of a teacher's job to assign
a student a multi-million-dollar project as a graduation requirement.
Additionally, in doing so, the Sixth Circuit departed from its own precedent when it "summarily
decided the merits of the controversy "without the ordinary incidents of a trial, including the right to a
jury...under the guise of determining the jurisdictional issue." Fireman's Fund Ins. Co. v. Ry. Express
Agency, Inc., 253 F.2d 780, 784 (6th Cir. 1958) (internal citations omitted). Rymer sought a jury trial to
determine whether the projects were unfeasible or
retaliatory. In either case, the professors would not
be entitled to qualified immunity. The case must be
remanded, proceed to discovery, and go to trial before
a jury.

16

Milliken v. Bradley, 433 U.S. 267 (1977)20
The court of appeals failed to address the argument that Rymer is entitled to remedial measures for
lingering effects from antecedent violations of his
constitutional rights, notwithstanding sovereign immunity.
Foman v. Davis, 371 U.S. 178 (1962)
The lower courts disregarded Foman by requiring
Rymer to overcome the requirements of Rule 59(e)
prior to granting leave to amend his complaint. The
lower courts also disavowed circuit precedent by failing to address the argument that Rymer is entitled
leave to amend under the even less stringent requirement set forth in Berndt v. Tennessee, 796 F.2d 879
(6th Cir. 1986)
Rymer sought leave to amend his complaint to
improve its wording, narrow the issues21, and to add
§§1983, 1985(3) claims. In seeking leave, Rymer
relied on this Court's holding in Foman, 371 U.S. 178
20 Rymer also argued that Martin continues to degrade the eco-

nomic value of his abilities by maintaining libelous academic
records containing retaliatory bad grades. It was argued that
declaratory judgment and a mandatory injunction ordering
Martin to adjust the grades falls squarely within Martin's
narrow view of the scope of Ex parte Young.
21 The 11th Circuit might have considered Rymer's complaint,
which plead two severable cases in one complaint, to be a "shotgun" pleading and ordered repleading. Vibe Micro, Inc. v. Shabanets, 878 F.3d 1291, 1296 (11th Cir. 2018) (holding district
courts are to sua sponte order repleading when presented with
"shotgun" complaints).

17

and the Sixth Circuit's holding in Berndt, 796 F.2d
879 (allowing pro se's to amend their complaints
without having to meet Rule 59's requirements).
Holt Civic Club v. Tuscaloosa, 439 U.S. 60 at
66 (1976)
The appellate court disregarded this holding by
requiring Rymer to include in his complaint a prayer
for injunctive relief. Holt interpreted Fed. R. Civ. P.
54(c) to require courts to provide entitled remedies
regardless of whether they are specified in the pleadings.
Steel Co. v. Citizens for a Better Env't, 523 U.S.
83, 94 (1998).
"Without jurisdiction the court cannot proceed at
all in any cause. Jurisdiction is power to declare the
law, and when it ceases to exist, the only function remaining to the court is that of announcing the fact
and dismissing the cause."
The lower. courts disregarded precedent by dismissing under both Rules 12(b)(1) and 12(b)(6).
Erickson v. Pardus, 551 U.S. 89 (2007)
The lower courts failed to liberally construe the 20
U.S.C. §1011a claim as claims under 42 U.S.C. §§
1983 and 1985(3).

18

Fox v. Vice, 563 U.S. 826, 834 (2011)
Fox recognized that each claim must be weighed
on its own merits. The lower courts basically lumped
all of Rymer's claims together once they chunked him
into the loony-frivolous bin.
3. The Sixth Circuit passed over determinative
sovereign immunity arguments pressed upon
it.
Courts of appeals have no discretion to pick the
issues to be reached. Cooper & Berman, Passive Virtues and Casual Vices in the Federal Courts of Appeals, 66 Brook. L. Rev. 685, 716-17 (2001). When
courts of appeals have passed over issues, this Court
takes either of two courses: 1.) remand for further
consideration or 2.) undertake initial decision of the
matters. Wright & Miller, 17 Federal Practice and
Procedure, §4036 at 47-49.
The following issues were pressed upon but
passed over by the Sixth Circuit.
Whether this case is a good fit for application
of this Court's ruling in Milliken which held
lingering effects from antecedent unconstitutional violations are remediable, notwithstanding sovereign immunity?
Whether district court rulings and
unpublished appellate decisions are binding
precedent when they are predicated upon outdated financial reports from the year 1928?

19

Whether state laws conferring sovereign immunity upon financially independent corporations are valid, and, if so, whether those statutes are retroactive?
4. Void orders that are affirmed on appeal are
still void.

Though probably not an issue of first impression
in this Court, no case could be located as to whether
a void order may be transmuted into a valid judgment when it is affirmed on appeal. The highest
courts of several states which have considered the issue have unanimously ruled that such judgments remain void.
"[T]he affirmance of a void judgment on appeal
does not make it valid." Kennedy v. Chadwell, 202
Okla. 491, 496, 215 P.2d 548, 553 (Okla. 1950)(citing
Ball v. Tolman, 135 Cal. 375, 67 P. 339, 87 Am. St.
Rep. 110; Pioneer Land Co. v. Maddux, 109 Cal. 633,
42 P. 295, 50 Am. St. Rep. 67 (Cal. 1895); see also
Vane v. Jones, 13 Idaho 21, 24 (Idaho 1907); Gille v.
Emmons, 58 Kan. 118, 48 P. 569, 62 Am. St. Rep. 609
(Kan. 1897);Wilson v. Montgomery, 22 Miss. 205, 207
(Miss. 1850);Chambers v. Hodges, 23 Tex. 104 (Tex.
1859).
B. Inadequate appellate review justifies a GVR.
There was no appellate review complying with the
requirements of 28 U.S.C. §46 and 28 U.S.C. §453
20

and therefore no due process.22 Shunting Rymer's
appeal to a staff attorney also deprived Rymer of
equal protection of the law. A remand by this Court
with instructions to put the case on the oral argument calendar will enable adequate appellate review.
1. The Epimenides Paradox proves no Article III
judge participated on Rymer's appellate panel.
In 1991, Circuit Judge John Rogers, who was
supposedly on Rymer's panel, wrote an article that
referenced the Epimenides Paradox which is stated
thusly, "Epimenides the Cretan is reported to have
said, "All Cretans are liars."" Hon. John M. Rogers, "I
Vote This Way Because I'm Wrong": The Supreme
Court Justice as Epimenides, 79 Ky. L.J. 439 (1991).
In other words, "Epimenides the Cretan says, 'that
all the Cretans are liars,' but Epimenides is himself a
Cretan; therefore he is himself a liar. But if he is a
liar, what he says is untrue."23
Here we have a supposed appellate panel of
Article III judges who have affirmed a bogus ruling
that Christians are mentally incompetent. Yet, two
of the members of that supposed panel are
22 This Court has inquired into the legality of the composition of
a federal appellate court, even though no question in that respect was raised by the parties in the lower courts. Ernest H.
Schopler, Annotation: What Issues Will The Supreme Court
Consider, Though Not, or Not Properly, Raised by the Parties,
42 L. Ed. 2d 946 at 14 (citing William Cramp & Sons Ship &
Engine Bldg. Co. v. International Curtiss Marine Turbine Co.,
228 U.S. 645 (1913); Lamar v. United States, 241 U.S. 103
(1916); Glidden Co. v. Zdanok, 370 U.S. 530 (1962)).
23 Fowler, Thomas, The Elements of Deductive Logic (3rd ed.).
Oxford: Clarendon Press. p. 163 (1869)

21

Christians24 themselves! Obviously, the two Christians on the panel did not do much reviewing of this
case. Otherwise, the alternative conclusion, that
they actively participated in the review, would give
rise to a paradox similar to Epimenides's. It is
apparent there was no appellate review conforming
to the requirements of 28 U.S.C. §46, and therefore
no due process.
2. The use of a staff attorney deprived Rymer of
equal protection of the law.
Appeals brought by pro se's are automatically
sent to a staff attorney for disposa1.25 As a pro se appellant, Rymer was deprived of equal protection of
the laws that provide an appeal as of right before a
panel of three Article III judges. 28 U.S.C. §46;
28 U.S.C. §453 (equal judicial consideration to the
poor and to the rich); Dig. Equip. Corp. v. Desktop
Direct, 511 U.S. 863, 865 (1994) (§1291 provides an
appeal as of right from final judgments of district
courts).
Because law clerks are not judges, nor are
staff attorneys. Doe v. Cabrera, 134 F. Supp. 3d 439,
452 (D.D.C. 2015) ("term law clerk is not a judge").
Because staff attorneys are not supervised by judges
and rarely, if ever, even meet with the judges for

24 Circuit Judge Siler is a former President of the Kentucky
Baptist Convention; Circuit Judge Cook is Catholic.
25 See footnote 11, supra

22

whom they work26, staff attorneys pose a greater risk
of injecting or perpetuating bias into their work than
law clerks. Cf. id. at 453 ("judges are able to ferret
out and set aside the potential biases of their law
clerks")(emphasis added).
Delegating judicial duties to staff attorneys in pro
se appeals violates 28 U.S.C. §453. Such policy harkens to the days of Cincinnatus who decreed only Patricians were entitled to due process. Ironically,
eventually Cincinnatus himself fell on hard times.
In this case, the staff attorney put a toxic spin on
non-issues not on appeal, threw the doctrine of stare
decisis out the window, and ignored arguments
raised by Rymer. In doing so, the staff attorney
ensured his or her recommended disposition would
be affirmed by the panel. The staff attorney "twisted
the knife" in the wounds inflicted upon Rymer by
Judge Victoria Roberts's hatchet job.
3. Because of Judge Victoria Roberts's bias,
appellate review was an inadequate remedy.
Even if a panel of three Article III judges had not
delegated their duties to a staff attorney, as Justice
McKenna wrote, appellate review is an inadequate
remedy when the trial court judge is biased. Berger,
255 U.S. at 36.

Hon. Richard A. Posner, Reforming the Federal Judiciary,
166 (2017)

26

23

Circuit Judge Gil Merritt tells it best,
"[W]e learn from an early age to defer to the
authority of parents and established institutions...We do not entirely lose that tendency
when we grow up to be judges who decide
cases between individuals and established institutions like governments, corporations, officials and other representatives of groups of
higher social rank. The less time we have to
decide a case between an individual and the
representative of established authority the
more pressure there is to decide quickly and
we may be less likely to analyze and reflect
on the condition and circumstances of the individual's case...It is with the courts of appeals that the deference to authority is most
apparent...cases have been reviewed already
...before they arrive for further review. It is
easier for a court of appeals to defer to [lower
tribunals]... and affirm denials... than to take
the time to consider the case fully." Hon. Gilbert S. Merritt, Judges on Judging: The Decision Making Process in Federal Courts of Appeals, 51 Ohio St. L.J. 1396-1397 (1990).
When Judge Victoria Roberts issued her biased rulings she initiated a snowball effect. The appellate
court deferred to her because she is an Article III
judge. A remand by this Court will cause the Sixth
Circuit to look more closely at Rymer's appeal.

24

C. Either statutory or common law writs of certiorari
may be used to review the judgments.
Review by statutory writ of certiorari may be
granted because the lower courts "so far departed
from the accepted and usual course of judicial proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court's supervisory power." Sup. Ct. R. 10. GVR is used to
"achieve individual justice even in cases that do not
warrant plenary consideration." 16B Wright & Miller, Federal Practice and Procedure (3d), §4004.5
p133. See also 17 Wright & Miller, §4035 p8, citing
Montana v. Kennedy, 366 U.S. 308, 309 (1961)
(granting certiorari "in view of the apparent harshness of the result entailed").
Alternatively, "Ex parte Chetwood established
common law certiorari as an independent means of
reviewing lower court action." 16B Wright & Miller,
Federal Practice and Procedure (3d), § 4005 at
161(citing In re Chetwood, 165 U.S. 443, 461-62
(1897)). The writ may be used "to correct excesses of
jurisdiction and in furtherance of justice." Ibid. It is
a "means of giving full force and effect to existing appellate authority27 and of furthering justice in other
kindred ways." 23 Moore's Federal Practice - Civil §

27

"The term 'appellate jurisdiction' is to be taken in its larger
sense, and implies in its nature the right of superintending the
inferior tribunals." 23 Moore's Federal Practice - Civil § 520.02
n.5

25

520.12 (2019) (citing In re 620 Church Street Bldg.
Corp., 299 U.S. 24, 26 (1936)).
The factors guiding the discretion to review by
common law writ of certiorari are not as stringent.
There is no need for a case to involve a question of
national importance nor the need for a circuit conflict. See e.g., Chetwood, 165 U.S. at 461(review of a
contempt order); McClellan, v. Carland, 217 U.S. 268
(1910)(a federal diversity lawsuit against an intestate decedent's administrator).
Here, the Sixth Circuit affirmed a void order
entered by a biased judge who defied an order of the
Chief Judge of the Sixth Circuit, removing her from
this case. Upon review, the Sixth Circuit disavowed
this Court's rulings at least seven times. By affirming Judge Roberts's void order that this suit is frivolous and Christians are mentally incompetent,
Rymer's fundamental rights are in limbo, a particularly harsh result, justifying granting the statutory
writ of certiorari. Alternatively, the common law
extraordinary writ of certiorari is appropriate because it will aid this Court's appellate jurisdiction
and will achieve the ends of justice.28
28

"[N]o distinction is to be made between orders in aid of a
court's own duties and jurisdiction and orders designed to better enable a party to effectuate his rights and duties." United
States v. N.Y. Tel. Co., 54 L. Ed. 2d 376 (1977), Headnote 13.
"[A] federal court may avail itself of all auxiliary writs as aids
in the performance of its duties, when the use of such historic
aids is calculated in its sound judgment to achieve the ends of
justice entrusted to it." Id., 434 U.S. 159, 173 (1977) (internal
citation omitted). "The court's supplemental powers under the
All Writs Act, 28 U.S.C.S. § 1651(a), are not limited to those
situations where it is "necessary" to issue a writ or order in the

26

II.

The circuits that consider state law to not be
dispositive in determining whether an entity is an
arm of the state are correct because it makes no
sense to allow sovereign immunity to give public
corporations an unfair advantage over private enterprise.

The Seventh, Tenth, and Eleventh Circuits consider state law to not be dispositive in determining
whether an entity is an arm of the state. The modern Sixth Circuit disagrees. In the context of federal
public corporations chartered with a "sue-and-besued" clause, this Court typically considers such an
entity to be a business to be held as liable as any
other business. This Court's jurisprudence on federal public corporations supports the Seventh, Tenth,
and Eleventh Circuits' jurisprudence on state public
corporations. By applying such rules to UT, Rymer's
claims may proceed.
A. Current arm-of-the-state tests in the Sixth
Circuit.
In the Sixth Circuit, there are two arm-of-thestate tests, Hall29, for the "peculiar circumstances" of
sense that the court could not otherwise physically discharge its
appellate duties." Id.
29 Hall u. Med. Coll. of Ohio, 742 F.2d 299, 302(6th Cir.
1984)(finding the nine-point test in Blake v. Kline, 612 F.2d 718
(3d Cir. 1979) to be a better approach for examining the "peculiar circumstances" of different colleges and universities).

27

colleges and universities, and Ernst, for other entities. Until this case, the Sixth Circuit has never
attempted to apply either test to UT. Here, it applied the wrong test prematurely and incorrectly.
This Court has said the question of "whether a
particular state agency has the same kind of independent status as a county or is instead an arm of
the State, and therefore "one of the United States"
within the meaning of the Eleventh Amendment, is a
question of federal law. But that federal question can
be answered only after considering the provisions of
state law that define the agency's character." Regents
of the Univ. of Cal. v. Doe, 519 U.S. 425, 429-30 n.5
(1997). There appears to be confusion, at least in the
modern Sixth Circuit, as to how to properly consider
all of the provisions of state law that define an agency's character.
In the district court, Rymer sought an evidentiary hearing to require UT to carry its burden of
proving its allegation that it is an arm of the state.
The lower courts denied the hearing and placed the
burden of proof on Rymer, in violation of circuit precedent. Gragg v. Ky. Cabinet for Workforce Dev., 289
F.3d 958 (6th Cir. 2002)(entity claiming entitlement
to sovereign immunity bears the burden of proving
itself an arm of the state);see also J.S. Haren Co. v.
Macon Water Auth., 145 F. App'x 997 (6th Cir. 2005)
(vacating a dismissal and ordering discovery to determine whether a party is an "arm of the state" and
whether there has been a waiver or abrogation of
sovereign immunity).

28

In support of its motion to dismiss, UT relied
upon court rulings predicated upon its financial relationship with the State in the year 1928. In 1975, in
considering those rulings, the Sixth Circuit said:
"We are uncertain whether the University of
Tennessee is a state instrumentality protected by the eleventh amendment. The record before us contains little data on the University's financial relationship with the State
of Tennessee, and the Tennessee cases and
statutory materials do not compel a conclusion one way or the other."
Soni v. Bd. of Trs., 513 F.2d 347, 352 (6th Cir. 1975).
In 1991, Circuit Judge Damon Keith authored
a conflicting opinion. Woolsey v. Hunt, 932 F.2d 555,
565 (6th Cir. 1991). Soni never held UT to be an arm
of the state, but Woolsey mistakenly thought it had.
Woolsey yields to Soni. See Darrah v. City of Oak
Park, 255 F.3d 301, 309 (6th Cir. 2001) ("When a
later decision of this court conflicts with one of our
prior published decisions, we are still bound by the
holding of the earlier case"). Ever since Woolsey, the
Sixth Circuit has confounded the issue of waiver of
immunity with the separate issue of whether UT is
an arm of the state. For more than 40 years, the
Sixth Circuit has failed to address, in a published
opinion, whether UT is an arm of the state under the
Hall test.
Here, the Sixth Circuit not only applied the
wrong test (Ernst), but it also applied that test prematurely because UT failed to submit any evidence
supporting its claimed status. In the absence of any
29

evidence upon which to run the test, the Sixth Circuit ran the test using selectively chosen state laws
and court rulings predicated upon selectively chosen
state law. The Sixth Circuit erroneously regarded a
state statute, Tenn. Code Ann. § 9-1-103, supreme
over Tenn. Const. art. II, § 31 (barring the state from
owning stock in corporations, an activity UT participates in). Goddard v. Sevier County, 623 S.W.2d
917, 919 (Tenn. 1981) (state constitution takes precedence over state statutes). "A governmental agency
or subdivision may not do that which the State is forbidden to do by the Constitution." Mich. Say. & Loan
League v. Mun. Fin. Corn., 79 N.W.2d 590, 592 (Mich.
1956). Either UT is not an arm of the state or its investment activities are ultra vires.

B. Seventh, Tenth, and Eleventh Circuit holdings
can unify sovereign immunity jurisprudence in
the realm of state and federal public corporations.

Can states pass laws to confer sovereign immunity upon entities, particularly in instances where, as
here, the entity receives less than 30% of its funding
from the State and engages in activities barred to the
State by the State constitution? The Seventh, Tenth,
and Eleventh Circuits would say "no way" given "[a]
state would have too much self-interest in extending
sovereign immunity to as many of its agencies and
corporate creations as possible to allow local laws to
be determinant." Miller-Davis Co. v. Ill. State Toll
Highway Auth., 567 F.2d 323, 330 (7th Cir. 1977);
30

accord Versiglio v. Bd. of Dental Exam'rs, 651 F.3d
1272, 1277 (11th Cir. 2011);Duke v. Grady Mun.
Sch., 127 F.3d 972, 978 (10th Cir. 1997).
Miller-Davis nicely meshes with this Court's
holdings on federal public corporations chartered
with "sue-and-be-sued" clauses. Such entities which
are "launched ... into the commercial world" and "authorize[d] to engage" in "business transactions with
the public" should have the same "amenab[ility] to
judicial process [as] a private enterprise under like
circumstances." Thacker v. TVA, 203 L. Ed. 2d 668,
(2019). "[A]n entity with a
677 (2019); 587 U. S.
sue-and-be-sued clause may receive immunity only if
it is "clearly shown" that prohibiting the "type[] of
suit [at issue] is necessary to avoid grave interference" with a governmental function's performance...That is a high bar." Id. at 678.
UT's charter includes a "sue-and-be-sued" clause.
UT Charter, Art.V,§1. In competition with private
schools, it sells educational services to the public. It
is a business. UT is not above the law and should be
held accountable for abusing Rymer.
III.

Hans v. Louisiana should be overturned given the
ratification of the ICCPR which requires effective
remedies for rights violations by state officers.
Because of an international law binding upon the
United States that requires the government to provide effective remedies to victims of rights violations

31

by government officials, Hans v. Louisiana should be
overturned.30
As will be discussed, it has been held that the provision of effective remedies includes, where necessary, monetary compensation. Where, as here, the
rights infringing employees are likely financially
unable to make their victim whole, there is no effective remedy if Martin is entitled to sovereign immunity. "To take away all remedy for the enforcement of
a right is to take away the right itself. But that is
not within the power of the State." Poindexter v.
Greenhow, 114 U.S. 270, 303 (1885).
The International Covenant on Civil and Political Rights (Covenant) was ratified by this nation.
"[T]he Covenant does bind the United States as a
matter of international law". Sosa v. Alvarez-Machain, 542 U.S. 692, 735 (2004). "Notwithstanding its
non-self-executing status, the Supreme Court and
lower federal courts have frequently consulted the
ICCPR as an interpretive tool to determine
Overturning Hans v. Louisiana is part of a larger argument
raised in the lower courts, that sovereign immunity does not
bar Rymer's lawsuit, and hence may be considered by the
Court. Wright & Miller, 17 Federal Practice and Procedure,
§4036 at p46 (collecting cases, see e.g. PGA Tour, Inc. v. Martin,
532 U.S. 661, 678 n.27 (allowing PGA to raise argument that is
part of a larger argument raised below). Moreover, because
only this Court can overturn its rulings, it would have been futile to ask the lower courts to consider doing so. Roper v. Simmons, 543 U.S. 551, 629 (2005)("it is this Court's prerogative
alone to overrule one of its precedents"). See generally Noatak v.
Hoffman, 872 F.2d 1384, 1387 (9th Cir. 1989)(questioning the
"continued vitality" of Hans, but duty-bound to uphold it).
30

32

important issues in the area of human rights law."
Garcia v. Sessions, 856 F.3d 27, 60 (1st Cir.
2017)(Stahl, J., dissenting)(applying the Covenant to
find that deference to a federal agency caused the
United States to be in violation of its commitments
under the Covenant's provisions).
The Covenant also applies to all government
entities and agents, including all state and local governments in the United States. When the U.S. Senate ratified the Covenant, it included an Understanding that recognized our federal system of government, and specifically stated that the Covenant
"shall be implemented by the Federal Government to
the extent that it exercises legislative and judicial jurisdiction over the matters covered" by the Covenant,
"and otherwise by the state and local governments"
with support from the federal government for the fulfillment of the Covenant. 138 CONG. REC. 6, 8070
(1992).
Article 2 of the Covenant requires effective
remedies for rights violations by state officers. The
United Nations Human Rights Committee, in overseeing and interpreting the Covenant, has established that an effective remedy includes compensation. In its General Comment analyzing the legal obligations imposed by the Covenant, the Human
Rights Committee specified that the provision requiring an effective remedy can only be fulfilled if "appropriate compensation" is made available to victims of
human rights violations. "Article 2, paragraph 3, requires that States Parties make reparation to
33

individuals whose Covenant rights31 have been violated. Without reparation to individuals whose Covenant rights have been violated, the obligation to provide an effective remedy...is not discharged."
U.N.H.R.C., General Comment No. 31: The Nature of
the General Legal Obligation Imposed on States Parties to the Covenant, at ¶16.
"[T]he Committee notes that, where appropriate, reparation can involve restitution, rehabilitation
and measures of satisfaction, such as public apologies, public memorials, guarantees of non-repetition
and changes in relevant laws and practices, as well
as bringing to justice the perpetrators of human
rights violations." Id.
The interpretations of the Eleventh Amendment in Hans v. Louisianan and of the Tenth
Amendment in Alden v. Maine33 cause the United
States to be in violation of its binding obligation to
provide an effective remedy for Covenant rights violations perpetrated in the name of the government.
In Hans and Alden, the Court acknowledged
that the literal text of the Eleventh Amendment does
not foreclose lawsuits in federal court brought by citizens against their own states. Hans, 134 U.S. at 11;
Alden, 527 U.S. at 713. In Alden, the Court relied
31 The Covenant rights provided by Article 19 subsections (1)
and (2) mirror the rights provided by the free speech clause of
the First Amendment.
32 Hans v. Louisiana, 134 U.S. 1 (1890)
33 Alden v. Me., 527 U.S. 706 (1999)

34

upon the Tenth Amendment to enshrine the British
common law doctrine of sovereign immunity. Id. In
doing so, the Court rendered the Eleventh Amendment superfluous. Id. at 760-61 (Souter, Breyer,
Ginsberg, and Stevens, JJ., dissenting).
Justice Scalia recognized that "[a]t the time of
Marbury v. Madison there was no doctrine of domestic sovereign immunity, as there never had been in
English law." Hon. Antonin Scalia, Historical Anomalies in Administrative Law, 1985 YEARBOOK
103,104 (Supreme Court Historical Soc'y);cf. Edelman v. Jordan, 415 U.S. 651, 687-88 (1974) (Brennan, J., dissenting) ("nonconstitutional but ancient
doctrine of sovereign immunity" is not a bar to suits
against the states by their own citizens).
There is much that could be presented on this
subject upon plenary consideration. One of those arguments is Hans relied upon the no longer true supposition that "civilized nations" cannot be sued.
Hans, 134 U.S. at 17. Today, civilized nations across
the globe have abrogated sovereign immunity, e.g.,
Argentina, Australia, France, Germany, Ireland, and
the UK.34 Why should a defunct and misunderstood
British common law doctrine be allowed to deny justice to Americans who have been gravely injured by
employees of their home state?
Hans has lost its vitality and should be overturned.
Gilman, Calling the United States' Bluff, 95 Geo. L.J. 591,637
(2007)

34

35

1V.

42 U.S.C. §2000d-7 abrogated Martin's
purported immunity to claims brought under
20 U.S.C. §1011a.

Rymer filed a claim against Martin under 20
U.S.C. §1011a. The Sixth Circuit ruled that "the
Higher Education Act does not create a private right
of action and instead "provides for enforcement
through an administrative action brought by the Secretary [of Education]." The truth is, in 1979, this
Court held there is a private right of action under the
Higher Education Act. Cannon v. Univ. of Chi., 441
U.S. 677 (1979)(recognizing a private right of action
under Title IX). Furthermore, the Secretary provides
no enforcement of §1011a. If that law is to be enforced, it will only be through private action. The
same grounds that established a private right of action under Title IX of the Higher Education Act
(HEA) and abrogated sovereign immunity against
monetary damages by Title X of the Rehabilitation
Act Amendments of 1986 establish the same under
Title I of the HEA. The door to an effective remedy
can open.
A. The Cort factors support a private right of action under 20 U.S.C. §1011a.
This Court has established a four-factor test for
discerning whether a statute creates a private right
of action. Cort v. Ash, 422 U.S. 66 (1975). Under that
test, the Court considers: (1) whether the plaintiff is
a member of a class that the statute especially intended to benefit, (2) whether the legislature explicitly or implicitly intended to create a private cause of
36

action, (3) whether the general purpose of the statutory scheme would be served by creation of a private
right of action, and (4) whether the cause of action is
traditionally relegated to state law such that implication of a federal remedy would be inappropriate. Id.
at 78.
An in-depth analysis of those factors as applied to
20 U.S.C. §1011a is beyond the proper scope of a cert
petition35, but it is clear the Cort factors favor a private right of action.
§1011a is entitled "[p]rotection of student speech
and association rights." The statute incorporates the
Fourteenth Amendment's prohibition of discrimination. Therefore, it has "teeth" to protect student
speech. As to the intention of Congress to provide a
private right of action, this Court has said the main
thing is Congress must not explicitly ban a private
right of action. Cannon, 441 U.S. at 696. And with
§1011a it has not. The third factor is satisfied because a private right of action is "necessary...to the
accomplishment of the statutory purpose" because
the Secretary does not enforce §1011a. Cf. id. at 703.
Finally, the fourth factor is satisfied because §1011a
covers invidious discrimination against students on
the basis of the content of their speech and protecting citizens from "invidious discrimination of any
sort" has been a role of the federal courts since the
Civil War. Id. at 708.
Upon plenary consideration, these arguments
would be briefed in full.

35

Hon. Antonin Scalia, Making Your Case, 77 (2008)

37

B. §1011a incorporates a prohibition of discrimination thereby abrogating state sovereign
immunity through 42 U.S.C. §2000d-7.
Congress abrogated state sovereign immunity
"from suit in Federal court for a violation of...the provisions of any... Federal statute prohibiting discrimination by recipients of Federal financial assistance."
42 U.S.C. §2000d-7. This Court held §2000d-7 to be
an "unambiguous waiver of the States' Eleventh
Amendment immunity." Lane v. Pena, 518 U.S. 187,
200 (1996).36
§1011a incorporates the Fourteenth Amendment's
prohibition of discrimination by recipients of Federal
financial assistance. Therefore, §1011a is a statute
Congress included within §2000d-7. Thus, Martin, a
recipient of Title IV funds, has no sovereign immunity from claims under §1011a.
CONCLUSION
Judge Victoria Roberts's disobedience to the
Chief Judge's order and her spin-doctored hatchet
job, in conjunction with the inadequate appellate
review, if nothing else, warrant a GVR with instructions for the court of appeals to recall its mandate
and put this case on its oral argument calendar.

Because of §2000d-7 there is no need to resurrect the
constructive waiver doctrine laid to rest in Coll. Say. Bank u.
Fla. Prepaid Postsecondary Educ. Expense Bd., 527 U.S. 666,
668, 119 S. Ct. 2219, 2222 (1999).
36

38

However, the certworthy issues pertaining to
the sovereign immunity of commercial enterprises
warrant plenary consideration.
Respectfully submitted,

Lincoln Rymer
154 Fowler Cemetery Lane
Hurricane Mills, TN 37078
931-296-3001

VERIFICATION
I, Lincoln Rymer, do hereby swear and affirm under
28 U.S.C. §1746 that the matters stated and
contained herein and appended thereto at C, E-H,
and L are true to the best of my knowledge and information. May 16, 2019

x
Lincoln Rymer

39

